U.S. Department of Labor                Office of Inspector General
                                        Washington, DC. 20210




July 1, 2009



Mr. Paul Kerrigan
Group Controller
AARP Foundation
601 E Street, NW
Washington, DC 20049

Dear Mr. Kerrigan:

The purpose of this final report (Report Number 24-09-006-03-360) is to formally
advise you of the results of a Quality Control Review (QCR) the U.S. Department
of Labor, Office of Inspector General, conducted of the following audit performed
by KPMG LLP under the Federal Single Audit Act and Office of Management and
Budget (OMB) Circular A-133 (A-133):

      AARP Foundation, Audit of Federal Awards under
      OMB Circular A-133, December 31, 2007

The objectives of the QCR were to determine whether: (1) the audit was
conducted in accordance with applicable standards and meets the single audit
requirements; (2) any follow-up audit work is needed; and (3) there are any
issues that may require management’s attention.

The major program included in our review was:


                                                      Catalog of Federal Domestic
                     Program
                                                          Assistance Number
 Senior Community Service Employment
                                                                      17.235
 Program


Based on our review of the audit documentation related to the program above,
we determined that the audit work performed was acceptable and meets the
requirements of the Single Audit Act and A-133. No follow-up work is required
and there are no issues that require management’s attention.




                      Working for America’s Workforce
                                U.S. Department of Labor – Office of Inspector General


If you have any questions concerning the results of the QCR, please contact
Robert J. Coyle, Director, Office of Audit Quality Assurance, at (202) 693-5226.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

cc: Ms. Ellen Harrison, Partner, KPMG LLP

   Judith A. Fisher, Director, Division of Policy, Review, and Resolution,
    Employment and Training Administration




                                         2                   Quality Control Review
                                                                  AARP Foundation
                                                    Report Number: 24-09-006-03-360
